   DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                       Office of Audit Services, Region VII
                                                                       601 East 12th Street, Room 0429
                                                                       Kansas City, MO 64106



January 20, 2010

Report Number: A-07-09-03124

Mr. Todd Meek
Vice President of Compliance Medicare Part D
CVS Caremark Corporation
9501 East Shea Boulevard
Scottsdale, Arizona 85260

Dear Mr. Meek:

Enclosed is the U.S. Department of Health and Human Services (HHS), Office of Inspector
General (OIG), final report entitled “Review of SilverScript Insurance Company’s Internal
Controls to Guard Against Fraud, Waste and Abuse for The Medicare Part D Program.” We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Greg Tambke, Audit Manager, at (573) 893-8338, extension 30, or
through email at Greg.Tambke@oig.hhs.gov. Please refer to report number A-07-09-03124 in
all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Todd Meek

Direct Reply to HHS Action Official:

Mr. Timothy B. Hill
Deputy Director
Centers for Drug and Health Plan Choice
Centers for Medicare and Medicaid Services
Mail Stop C5-19-16
7500 Security Boulevard
Baltimore, Maryland 21244-1850
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




   REVIEW OF SILVERSCRIPT
    INSURANCE COMPANY’S
INTERNAL CONTROLS TO GUARD
 AGAINST FRAUD, WASTE AND
  ABUSE FOR THE MEDICARE
      PART D PROGRAM



                       Daniel R. Levinson
                        Inspector General

                         January 2010
                         A-07-09-03124
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

BACKGROUND

The Medicare Part D Program

Title I of the Medicare Prescription Drug, Improvement, and the Modernization Act of 2003
(MMA) amended Title XVIII of the Social Security Act by establishing the Medicare Part D
prescription drug benefit. Under the Part D program, which began January 1, 2006, individuals
entitled to benefits under Part A or enrolled in Part B may obtain drug coverage. Although the
Part D program is overseen by the Centers for Medicare & Medicaid Services (CMS), Part D
drug benefit plans are administered by private companies that apply to CMS to participate in the
Part D program. When approved, these private companies contract with the Federal Government
to be Part D sponsors and market Part D drug plans directly to Medicare beneficiaries.

Centers for Medicare & Medicaid Services Oversight Responsibilities

CMS is responsible for safeguarding the Part D program from fraud, waste and abuse (FWA),
including ensuring Part D sponsors’ compliance with applicable requirements. CMS contracts
with Medicare Drug Integrity Contractors (MEDIC) to perform many Part D oversight activities.
The MEDICs’ responsibilities include analyzing claims and other data, investigating complaints,
and reviewing the FWA components of Part D sponsors’ compliance plans.

Part D Sponsors’ Responsibilities

The MMA includes a requirement that all Part D sponsors have a program to control FWA in the
Part D program; accordingly, CMS regulations establish the requirements for comprehensive
compliance plans for Part D sponsors. Chapter 9 of CMS’s “Prescription Drug Benefit Manual”
contains further interpretation and guidelines on the steps Part D sponsors should take to detect,
correct and prevent FWA. In that guidance, CMS recommends that Part D sponsors promptly
refer all potential incidents of FWA to the MEDICs.

SilverScript Insurance Company

SilverScript Insurance Company (SSIC) is a subsidiary of CVS Caremark Corporation. SSIC is
a Part D sponsor and has been approved as such by CMS since the beginning of the Part D
program. SSIC offers Part D drug plans that are available in all 50 states, the District of
Columbia and Puerto Rico.

OBJECTIVE

The objective of our review was to determine whether SSIC had adequate internal controls in
place to detect, correct and prevent FWA in the Part D program during the period of
January 1, 2007, through December 31, 2008.




                                                i
SUMMARY OF FINDINGS

Although most of SSIC’s internal controls were adequate, SSIC had several internal control
weaknesses that compromised its ability to detect, correct and prevent FWA in the Part D
program during the period of January 1, 2007, through December 31, 2008. Specifically:

      SSIC generally did not self-report potential FWA to the MEDICs as recommended by
       CMS guidance.

      Contrary to Federal regulations, SSIC paid claims for prescriptions written by physicians
       or other health care professionals who are excluded from Federal health care programs
       (excluded providers).

      SSIC did not have a procedure in place to track complaints made against providers as
       recommended by CMS guidance.

SSIC had written procedures requiring the self-reporting of potential FWA to the MEDICs, but
SSIC did not follow its own procedures. In addition, SSIC’s policies and procedures for the
denial of claims for prescriptions written by excluded providers did not conform to Federal
regulations. Furthermore, SSIC did not have policies and procedures to track complaints made
against providers.

As a result of these weaknesses, SSIC paid claims totaling at least $46,223 to excluded
providers. In addition, the internal control weaknesses increased the risk that additional
improper payments may have occurred.

RECOMMENDATIONS

We recommend that SSIC strengthen internal controls by:

      adhering to its policies and procedures to self-report potential FWA to the MEDICs
       pursuant to CMS guidance,

      revising its policies and procedures to deny claims for prescriptions written by excluded
       providers, as of the effective date of the exclusion, as required by Federal regulations,

      working with CMS to determine the proper resolution of the $46,223 in payments to
       excluded providers, and

      establishing policies and procedures to track complaints made against providers pursuant
       to CMS guidance.




                                                 ii
SILVERSCRIPT INSURANCE COMPANY COMMENTS

In written comments on our draft report, SSIC concurred with our recommendations and
described corrective actions that it has implemented.

SSIC’s comments are included in their entirety as the Appendix.




                                              iii
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION......................................................................................................................1

          BACKGROUND .............................................................................................................1
              Medicare Part D Program ....................................................................................1
              Centers for Medicare & Medicaid Services Oversight
                   Responsibilities ...........................................................................................1
              Part D Sponsors’ Responsibilities........................................................................1
              SilverScript Insurance Company .........................................................................2
              Excluded Providers in Medicare Part D...............................................................2
              Previous Office of Inspector General Work ........................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...........................................................3
               Objective ..............................................................................................................3
               Scope....................................................................................................................3
               Methodology ........................................................................................................3

FINDINGS AND RECOMMENDATIONS ............................................................................4

          REPORTING POTENTIAL FRAUD, WASTE AND ABUSE ......................................4

          PAYMENTS TO EXCLUDED PROVIDERS................................................................5

          TRACKING PROVIDER COMPLAINTS .....................................................................6

          EFFECT OF INTERNAL CONTROL WEAKNESSES.................................................7

          RECOMMENDATIONS.................................................................................................7

          SILVERSCRIPT INSURANCE COMPANY COMMENTS .........................................8

APPENDIX

          SILVERSCRIPT INSURANCE COMPANY COMMENTS




                                                                    iv
                                       INTRODUCTION

BACKGROUND

Medicare Part D Program

Title I of the Medicare Prescription Drug, Improvement, and the Modernization Act of 2003
(MMA) amended Title XVIII of the Social Security Act by establishing the Medicare Part D
prescription drug benefit. Under the Part D program, which began January 1, 2006, individuals
entitled to benefits under Part A or enrolled in Part B may obtain drug coverage. Although the
Part D program is overseen by the Centers for Medicare & Medicaid Services (CMS), Part D
drug benefit plans are administered by private companies that apply to CMS to participate in the
Part D program. When approved, these private companies contract with the Federal Government
to be Part D sponsors and market Part D drug plans directly to Medicare beneficiaries.

Centers for Medicare & Medicaid Services Oversight Responsibilities

CMS is responsible for safeguarding the Part D program from fraud, waste and abuse (FWA),
including ensuring Part D sponsors’ compliance with applicable requirements. CMS developed
chapter 9 of the “Prescription Drug Benefit Manual,” which provides guidance to Part D
sponsors for developing a program to control FWA.

CMS contracts with Medicare Drug Integrity Contractors (MEDIC) to perform many Part D
oversight activities. The MEDICs’ responsibilities include analyzing claims and other data,
investigating complaints, and reviewing the FWA components of Part D sponsors’ compliance
plans.

Part D Sponsors’ Responsibilities

The MMA includes a requirement that all Part D sponsors have a program to control FWA in the
Part D program; accordingly, CMS regulations establish the requirements for comprehensive
compliance plans for Part D sponsors. Chapter 9 of CMS’s “Prescription Drug Benefit Manual”
contains further interpretation and guidelines on the steps Part D sponsors should take to detect,
correct and prevent FWA.

In the chapter 9 guidance, CMS (a) recommends that Part D sponsors design their FWA
programs to safeguard against identified risk areas and (b) identifies examples of potential FWA,
to include potential incidents of FWA performed by Medicare beneficiaries. One such example
involves beneficiaries misrepresenting their identity to illegally obtain benefits from the Part D
program. Another example appears when beneficiaries engage in the practice known as doctor
shopping, whereby a patient who intends to abuse or sell drugs seeks prescriptions from a
number of physicians. When a Part D sponsor identifies potential FWA, CMS recommends that
the Part D sponsor promptly refer the incident to the MEDICs.




                                                1
SilverScript Insurance Company

SilverScript Insurance Company (SSIC) is a subsidiary of CVS Caremark Corporation. SSIC is
a Part D sponsor and has been approved as such by CMS since the beginning of the Part D
program. SSIC offers Part D drug plans that are available in all 50 states, the District of
Columbia and Puerto Rico.

Excluded Providers in Medicare Part D

Federal regulations at 42 CFR § 1001.1901(b)(1) prohibit payment under Medicare, Medicaid,
and other Federal health care programs for prescriptions written by physicians or other health
care professionals who are excluded from Federal health care programs (excluded providers) on
or after the effective date of the exclusion, until such time as the provider is reinstated. The
Office of Inspector General (OIG) and the General Services Administration (GSA) maintain lists
of excluded providers.

The OIG exclusion list is a listing of all individuals and entities that are prohibited from
receiving payment under Medicare, Medicaid, and other Federal health care programs. The GSA
exclusion list is a comprehensive listing of all parties excluded, throughout the U.S. Government,
from receiving Federal contracts or certain subcontracts and from certain types of Federal
financial and nonfinancial assistance and benefits.

CMS guidance in the “Prescription Drug Benefit Manual,” chapter 9, § 50.2.6.3.3, recommends
that Part D sponsors (a) review the OIG and GSA exclusion lists to identify excluded providers
and (b) have a process in place to deny claims for prescriptions written by excluded providers.

Previous Office of Inspector General Work

The OIG, Office of Evaluation and Inspections (OEI), issued two reports regarding Part D
sponsors’ compliance plans. In the first report, entitled “Prescription Drug Plan Sponsors’
Compliance Plans” (OEI-03-06-00100) and issued in December 2006, OEI found that most
Part D sponsors’ compliance plans did not address all of the CMS requirements or
recommendations. The second report, issued in October 2008 and entitled “Oversight of
Prescription Drug Plan Sponsors’ Compliance Plans” (OEI-03-08-00230), found that CMS had
conducted only one audit of a Part D sponsor’s compliance plan in 2007.

In addition, OEI issued a report in October 2008 entitled “Medicare Drug Plan Sponsors’
Identification of Potential Fraud and Abuse” (OEI-03-07-00380). OEI found that 24 of the 86
Part D sponsors reviewed did not identify any potential FWA, and that inappropriate billing was
the most prevalent type of potential FWA that was identified.




                                                2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our review was to determine whether SSIC had adequate internal controls in
place to detect, correct and prevent FWA in the Part D program during the period of
January 1, 2007, through December 31, 2008.

Scope

We reviewed SSIC’s internal controls that pertained to the detection, correction and prevention
of FWA in the Part D program for the period of January 1, 2007, through December 31, 2008.
We did not test the claims processing edits that were in place to ensure unallowable claims are
properly rejected.

We conducted fieldwork at the CVS Caremark Corporation offices in Phoenix, Arizona, and in
our field office in Des Moines, Iowa, from January through June 2009.

Methodology

To accomplish our objective, we:

       reviewed applicable Federal regulations and CMS guidance;

       held discussions with CMS officials and MEDIC staff members to gain an understanding
        of the oversight activities pertaining to Part D sponsors’ FWA programs;

       interviewed SSIC officials to gain an understanding of both SSIC’s FWA program and its
        internal controls to detect, correct and prevent FWA in the Part D program;

       reviewed the SSIC Compliance Plan as well as policies and procedures related to the
        internal controls to detect, correct and prevent FWA in the Part D program;

       reviewed SSIC’s potential FWA cases for the period of January 1, 2007, through
        December 31, 2008; and

       reviewed prescription drug event (PDE) 1 data pertaining to claims that were paid for
        prescriptions written by excluded providers.

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
1
 Part D sponsors must submit a summary record to CMS called the PDE record every time a beneficiary fills a
prescription covered under Part D. The PDE record contains prescription drug cost and payment data that will
enable CMS to meet payment provisions of the Part D program.



                                                        3
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Although most of SSIC’s internal controls were adequate, SSIC had several internal control
weaknesses that compromised its ability to detect, correct and prevent FWA in the Part D
program during the period of January 1, 2007, through December 31, 2008. Specifically:

      SSIC generally did not self-report potential FWA to the MEDICs as recommended by
       CMS guidance.

      Contrary to Federal regulations, SSIC paid claims for prescriptions written by excluded
       providers.

      SSIC did not have a procedure in place to track complaints made against providers as
       recommended by CMS guidance.

SSIC had written procedures requiring the self-reporting of potential FWA to the MEDICs, but
SSIC did not follow its own procedures. In addition, SSIC’s policies and procedures for the
denial of claims for prescriptions written by excluded providers did not conform to Federal
regulations. Furthermore, SSIC did not have policies and procedures to track complaints made
against providers.

As a result of these weaknesses, SSIC paid claims totaling at least $46,223 to excluded
providers. In addition, the internal control weaknesses increased the risk that additional
improper payments may have occurred.

REPORTING POTENTIAL FRAUD, WASTE AND ABUSE

CMS guidance in the “Prescription Drug Benefit Manual,” chapter 9, § 50.2.8.2, recommends
that Part D sponsors self-report potential FWA: “CMS believes that self-reporting of fraud,
waste and abuse is a critical element to an effective program to control fraud, waste and abuse.”
Furthermore, after the Part D sponsor has conducted an inquiry of an incident and determines it
to be potential FWA, the Part D sponsor should promptly refer the incident to the MEDICs, but
no later than 60 days after the determination that a violation may have occurred.

In keeping with this CMS guidance, the SSIC policy that addresses communication with the
MEDICs specifies that cases of potential FWA be referred to the appropriate MEDIC and/or
CMS within a reasonable time period, but no later than 60 days after the potential FWA has been
identified.

SSIC did not follow its own policy and written procedures for referring potential FWA to the
MEDICs. SSIC generally did not self-report potential FWA to the MEDICs as recommended by
CMS guidance. Instead, SSIC internally managed the majority of potential incidents of FWA.
During the period of January 1, 2007, through December 31, 2008, the SSIC FWA program


                                                 4
investigated 275 cases to identify potential incidents of FWA. Of the 275 potential FWA cases,
SSIC referred only 7 cases to the MEDICs.

For those cases that SSIC investigated for potential doctor shopping, SSIC routinely referred
these cases to its Plan Participant Safety and Quality Management (PSQM) program rather than
to the MEDICs.

As described in SSIC’s written documentation of its procedures, the PSQM program evaluated
the appropriateness of beneficiaries’ utilization of controlled substances and other targeted drugs.
On a quarterly basis, SSIC staff evaluated controlled substance claims to identify potential
medication abuse and fraudulent claims, thereby to determine appropriate intervention by SSIC
as a Part D sponsor. When this evaluation identified patterns of potentially excessive or abusive
utilization on the part of particular beneficiaries, the PSQM program used written notifications to
correct and deter excessive or abusive utilization. Specifically, SSIC sent letters to the
appropriate beneficiaries and their physicians, to inform them that the beneficiaries’ claim
histories exhibited a pattern of excessive or abusive utilization of controlled substances. The
program then gave the beneficiaries an opportunity to change their utilization patterns and the
physicians the chance to discuss the utilization with their patients. If a subsequent decrease in
the beneficiaries’ drug utilization patterns did not occur, the cases were continually monitored by
the PSQM program.

The cases that SSIC deemed appropriate for continued monitoring involved beneficiaries who
had used a number of physicians and pharmacies to obtain prescriptions for controlled
substances. For example, one beneficiary had used 28 different physicians and 12 different
pharmacies during an eight-month period to obtain controlled substances. Rather than referring
this case to the MEDICs, as recommended in the CMS “Prescription Drug Benefit Manual,”
SSIC handled the case internally.

Of the 275 cases of potential FWA that SSIC investigated during the period of January 1, 2007,
through December 31, 2008, SSIC referred only 7 cases to the MEDICs for further investigation.
None of the 7 referred cases involved potential doctor shopping, although SSIC investigated 22
cases on this basis. In an effort to deter excessive or abusive utilization of controlled substances,
SSIC managed these cases internally by referring them to the PSQM program. SSIC did not
refer any of the 22 cases to the MEDICs for further investigation.

SSIC did not have adequate internal controls relating to the reporting of potential FWA.
Specifically, SSIC did not follow its own policy and written procedures for referring cases of
potential FWA to the MEDICs. As stated earlier, the SSIC policy specifies that cases of
potential FWA be referred to the appropriate MEDIC and/or CMS within a reasonable time
period, but no later than 60 days after the potential FWA has been identified.

PAYMENTS TO EXCLUDED PROVIDERS

Federal regulations at 42 CFR § 1001.1901(b)(1) prohibit payment under Medicare, Medicaid,
and other Federal health care programs for prescriptions written by excluded providers on or
after the effective date of the exclusion, until such time as the provider is reinstated.



                                                  5
Contrary to these Federal regulations, SSIC paid claims for prescriptions written by excluded
providers on or after the effective date of the exclusion. Specifically, SSIC paid 610 claims
totaling $46,223 2 during the period of July 1, 2007, through December 31, 2008, for
prescriptions written by excluded providers. Although Federal regulations prohibit payments to
excluded providers on or after the effective date of their exclusion, SSIC paid the 610 claims
over the course of a period of 60 days after SSIC had notified beneficiaries that their providers
were excluded from the Part D program. In addition, SSIC paid all claims for excluded
providers prior to July 1, 2007, 3 because during that period SSIC did not have a process in place
to identify excluded providers or to deny claims for prescriptions written by excluded providers.

On April 1, 2007, SSIC completed and launched a program that identified excluded providers
and gave beneficiaries notification that specific providers were not eligible to participate in the
Part D program. On July 1, 2007, SSIC began denying claims for prescriptions written by
excluded providers. Prior to this date, though, SSIC did not have a process in place to identify
excluded providers or to deny claims for prescriptions written by excluded providers.

According to SSIC’s policy, SSIC updates its provider exclusion list monthly based on updates
from the OIG and GSA exclusion lists. When an excluded provider is identified, SSIC notifies,
in writing, all of the beneficiaries who have used that provider during the previous six months.
Pursuant to SSIC’s policy, this notification informs beneficiaries that the provider is no longer
“. . . able to take part in federally funded programs like the Medicare Part D prescription
benefit.” SSIC gives the beneficiaries 60 days from the date of the notification to find an
alternative provider. During this 60-day period, beneficiaries can continue to use their providers
without denial of their claims.

SSIC’s policies and procedures for denying claims for prescriptions written by excluded
providers did not conform to Federal regulations. The SSIC policy states that “SSIC rejects all
claims written by an excluded provider in accordance with CMS regulations sixty days after
identifying a prescriber on either the HHS OIG or GSA lists of excluded parties.” (Emphasis
added.) Contrary to SSIC’s policy, Federal regulations prohibit payment for prescriptions
written by excluded providers on or after the effective date of the exclusion.

TRACKING PROVIDER COMPLAINTS

CMS guidance in the “Prescription Drug Benefit Manual,” chapter 9, § 50.2.6.3.2, recommends
that Part D sponsors maintain files on providers who have been the subject of complaints,
investigations, violations, and prosecutions. This guidance adds that Part D sponsors are
expected to comply with law enforcement, CMS, and MEDIC requests to monitor providers
within their network that CMS has viewed as potentially abusive or fraudulent.



2
 SSIC provided us with the amount that it paid for prescriptions written by excluded providers; we did not
independently verify the accuracy of this amount.
3
 SSIC could not provide the amount paid to excluded providers for the time period prior to July 1, 2007, because it
did not have a process in place to identify excluded providers.



                                                         6
SSIC did not have a procedure in place to track complaints made against providers as
recommended by CMS guidance. SSIC officials said that there was not a procedure because
there was not a definitive source that SSIC could use for complaints made against providers.
The absence of a procedure may inhibit SSIC’s ability to (a) identify potential incidents of FWA
and (b) respond to requests to monitor providers that are viewed as potentially abusive or
fraudulent.

SSIC did not have sufficient internal controls to detect, correct and prevent FWA pertaining to
the tracking of complaints made against providers. Specifically, SSIC did not have a procedure
in place to track complaints made against providers.

EFFECT OF INTERNAL CONTROL WEAKNESSES

SSIC had several internal control weaknesses that compromised its ability to detect, correct and
prevent FWA in the Part D program. These internal control weaknesses increased the risk that
additional improper payments may have occurred.

SSIC did not refer any of the 22 cases that were investigated for potential doctor shopping to the
MEDICs for further investigation. As a result, the MEDICs would not be aware of the potential
FWA issues. Consequently, the MEDICs could not coordinate with other Part D sponsors to
prevent the same inappropriate utilization from occurring under other prescription drug plans in
the event that the beneficiaries in question switched to other Part D plans. For example, two of
the beneficiaries who were part of the PSQM program ended their enrollment with the SSIC
plan. One of these two beneficiaries switched twice to prescription drug plans managed by other
Part D sponsors and, during a subsequent 15-month period, used 36 different physicians and 25
different pharmacies to obtain controlled substances. The other beneficiary also switched twice
to prescription drug plans managed by other Part D sponsors after leaving SSIC and, during a
subsequent 21-month period, used 30 different physicians and 14 different pharmacies to obtain
controlled substances. Because it did not refer the cases to the MEDICs, SSIC increased the risk
that improper payments may have occurred for prescriptions for controlled substances that were
obtained by beneficiaries for the purpose of excessive or abusive utilization.

SSIC also paid claims totaling at least $46,223 for prescriptions written by providers who were
excluded from the Part D program Furthermore, the absence of a procedure to track provider
complaints may inhibit SSIC’s ability to (a) identify potential incidents of FWA and (b) respond
to requests to monitor providers that are viewed as potentially abusive or fraudulent.

RECOMMENDATIONS

We recommend that SSIC strengthen internal controls by:

      adhering to its policies and procedures to self-report potential FWA to the MEDICs
       pursuant to CMS guidance,

      revising its policies and procedures to deny claims for prescriptions written by excluded
       providers, as of the effective date of the exclusion, as required by Federal regulations,


                                                7
      working with CMS to determine the proper resolution of the $46,223 in payments to
       excluded providers, and

      establishing policies and procedures to track complaints made against providers pursuant
       to CMS guidance.

SILVERSCRIPT INSURANCE COMPANY COMMENTS

In written comments on our draft report, SSIC concurred with our recommendations and
described corrective actions that it has implemented. Specifically, SSIC stated that it has revised
the way it manages and reports cases of potential doctor shopping by increasing the number of
cases it reports to the MEDICs. In addition, SSIC said that it revised its policies and procedures
regarding the excluded provider process by (a) requiring that claims that are written for
prescriptions by excluded providers are denied as of the effective date of the provider’s
exclusion, and (b) implementing a procedure to report to the MEDICs any paid claims that SSIC
identifies as having been written by excluded providers. SSIC also stated that it will consult
CMS to determine the proper resolution of the $46,233 in payments to excluded providers.
Furthermore, SSIC said that it has established policies and procedures on how files will be
maintained on providers who have been the subject of complaints, investigations, violations and
prosecutions.

SSIC’s comments are included in their entirety as the Appendix.




                                                 8
APPENDIX
                                                                                                   Page 10f4


                  APPENDIX: AUDITEE COMMENTS




CARE~ 1 9501 E. Shea Blvd I Scottsdale, AZ            85260 I T: 480-391-4600




December 21, 2009

Patrick J. Cogley
Regional Inspector General for Audit Services
Region VII
601 Eastl 2th Street
Room 0429
Kansas City, Missouri 64106

Subject: Audit Report Number: A-07-09-03 l 24


Dear Mr. Cogley


Enclosed please find SilverScript Insurance Company' s eSSIe) response to the U .S. Department 

of Health and Human Services, Offi ce of Inspector General ' s (OIG) draft report entitled "Review 

of Silver Script Insurance Company's Internal Controls to Guard Against Fraud, Waste and 

Abuse for !he Medicare Part D Program" (Report Number: A-0 7-09 -03l 24). 

In addition to the enclosed paper copy of our responses we are including a CD with an electronic 

copy of this response, per your request. 

If you have any questions or corrunents please do not hesitate to call me at 480-6 14-7202, or 

contact Patrick Jeswald, Director Compliance Medicare Part D, at 480-66 1-2030, or through 

email at patrick.jeswald@caremark. com . 



Sincerely, 



frodd Meek! 

VP Compliance M edicare Part D 




Enclosures 

                                                                                                       Page 2 of 4




S ilve rScriplln suran ce Compan y's Res ponse to O IG draft r('port enti lled " Review of
SilverScripllnsurance Company's Intern al Co ntrols to C Uliru Against Fraud, Waste and
Abu sf' for th e Medic are Pari D Prog rllm" (Report Number: A-07-09-0J 124) (DIG Re port)


Findlng ll l :


SilverScript Insurance Company (SSIC) generally did not self-report potential Fraud. Waste and
Abuse (FWA ) to the Medicare Drug Imcgrity Contractors (MEDICs) as recommended by the
Centers for Medicare & Medicaid Services (eMS) Guidance.

Rcco mmcndalion:


We recommend ssrc strengthen internal controls by adhering to its policics and procedures to
self-report polentiol FWA 10 the MEDICs pursuant to eMS Guidance.


RH ponse:

SS IC concurs with the recommendation. Although the Part D regulatiOl'ls lind eMS guidance
make it clear that self-reporting of potential fraud is voluntary and nOI required, SSIC's policy is
(and has been) to report potential FW A cases, once SS IC detennines that potential fraud or
misconduct occurred. SSIC perfonns reasonablc inquiries and investigations of eases of
suspected potential fraud identified in order to determine if potcntial fTaud or misconduct
occurred.
In light o f the preliminary audit findings. SSIC has revised how potcntial "doctor shoppin g"'
CIIses arc managed and reported. and this has increased its volume of reporting of these types of
cases to IheMEDICs. During 2009. SSIC made 98 case referrals 10 the MEDICs, with 58 of
those 98 referrals being related to potentia! "doclor shopping" cases.
In the past, SSIC chose to manage and evaluate a beneficiaries' suspected over-utilization of
controlled substances (including "doctor Shopping") through its clinical Patient Safety Quality
Managcment Program ( PSQM). There was nothing in the CMS regulation or guidance that
required that these cases be reported 10 the MED!C and SS IC deemed it reasonable to handle
these cases internally.
The PSQM program was a program designed to identify and address pallerns of potentially
excessive or abusive utilization of controlled substances on the part of beneficiaries. It involved
a multi-prong approach, including (I) beneficiary communications meant to correct questionable
utilizations patterns, (2) prescriber communications designed to infonn prescribe~ of the
beneficiary's unusual prescription claims history, (3) review and monitoring by clinical
phannacists, and (4) a "phannaey lock-in" program that, when applicable, restricted beneficiaries
to receiving controlled substances from o ne phannacy. The goal of these tools was to provide
Ihe bencficiary with an opportunity to change his or her paltem of excessive or abusive
utili7.ation of controlled substances. If the utili zation pallem did not chan ge, the beneficiary was
locked into a particular phannacy to obtain controlled substances. SSIC no longcr uses the
                                                                                                    Page 3 of 4




"lock-in" option as pan of this PSQM program. Individuals who would previously have been
subject \0 lock in are now referred \0 the MEDIC.


Finding #2:

SSIC paid claims for prescriptions written by excluded providers.


Recommenda ti on:

We TC(:onunend SS IC strengthen imcrnaiwntrols by:
    o 	 revising ils policies and procedures 10 deny claims for prescriptions written by excluded
        providers, as orthe effective dale of the exclusion, as required by Federal regul3lions;
    o 	 working with eMS 10 detenninc the proper resolution orthe $46,223 in payments to
        excludtxl providers.

Respo nse:

SSlC concurs with the recommendation to revise its policies and procedures 10 deny claims for
prescriptions written by excluded providers, particularly in light ofCMS' clarifying guidance in
the 2010 Part D call letter. SS IC implemented procedures effective April 2007 to identify and
prevent paymetll of Part D claims at point-of-sale (POS) when such claims have been prescribed
by providers who have been excluded by either the United States Department of Health and
Human Services Office oflnspcc.tor General (O[G) or General Services Administration (GSA).
When the procedures were first established, SSIC provided beneficiaries with a 60 day window
(from notification date) to find a new prescriber before denying claims. Th is step was primarily
intended to avoid substantial inconvenience for beneficiaries who were patients of (in particular)
newly excluded prescribers. A beneficiary will present at POS with the prescription for a needed
medication being unaware of thc prescriber's excluded stahtS. If th e prescription is denied at
POS with no grace period available, the beneficiary is faced with having to obtain an
appointment with another provider, seeing the new provider, and getting a new prescription. In
these situations, substantial delays can occur in the beneficiary's obtaining needed medications.
As a result, it was SSIC's policy to provide the beneficiary with the specified grace period while
also providing the beneficiary with written notice of the provider's exclusion and advising that
future prescriptions wri tten by such provider would not be filled after a cenain date. CMS was
aware of SSlC's policy to provide a 60 day grace period, and approved the written
communication to the beneficiary. Providing this kind of notice and grace period was consistent
in spirit with the procedures that apply in the Medicare Part B context under relevant regulation
(42 C.F.R. § 1001.1901).
Consistent with current government policy, SSIC revised its policies and procedures regarding
the Excluded Provider process in June 2009, and no longer provides beneficiaries with a 60 grace
period to find a new prescriber. SSlC' s current procedures are to deny claims for prescriptions
written by excluded providers, as of the effective date of the exclusion. SS IC updates its
provider exclusion list monthly based on updates from the DIG and GSA lists and notifies
                                                                                                   Page 4 of 4




beneficiaries in writing that their providers are excluded from the Part 0 program and thai claims
prescribed by these providers will no longer be covered as of the effective dale of the cllclusion.
Beginning in 201 0, and consistent wilh the eMS 201 0 Call Letter, SSIC wi!! also provide
pham13cies wilh notice of the provider exclusion and future denial of claims, in addition 10 the
claim denial messaging that is currently in place at ros when a claim for an excluded provider is
submitted for payment (and rejected).
In addition, SSIC has implemented a procedure \0 repon to Ihe MED IC any paid claims Iha l it
identifies that were written by excluded providers. Ihal are discovered to have been submitted
and paid and report these claims to the ME DICs, per the guidance in section 50.2.6.3.3 of Fraud,
Waste and Abusc Chapter 9 of the Prescription Drug Manual.
Per CMS guidance and clarification provided in the CMS 2010 Call Letter, ifSSIC discovers,
due to timing issues associated with identifying excluded prescribers (such as those related to the
timing of updates to the OIG and GSA exclusion lists or to SSIC' s systems) any such claims
have been submitted and paid, SSIC:
" . . .should not reverse the claims, and no adjustment to the prescription drug evelll (POE) data is
required."
SSIC wi\! continue to report to the MED IC any identified claims where the prescription was
written by an excluded provider that are discovered to have been submitted and paid.
We will consul t CMS to detennine proper resolution of the S46,223 in payments to excluded
providers identified during the period in question, as sct forth in the OIG Report.

I' indio g 1/3:

SSIC did not have a procedure in place to track complaints made against providers.

Recomme ndation:

We recommend SSIC strengthen internal controls by establishing policies and procedures to
track complaints made against providers pursuant to CMS guidance.


Res ponse:

SS IC concurs with the recommendation. Although CMS guidance recommends that Plans have
a process for tracking complaints, investigations, violations, and prosec utions against providers,
SS IC has established policies and procedures on how files will be maintained on providers who
have been the subject of complaints, investigations, violations and prosecutions. The policies
and procedures describe the processes established by SSIC to track infonnation on providers
(e.g., phannacies and prescribing physicians) and maintain files for future reference in the
investigation :md analysis of potential fraud, wasle and abuse. SS IC will provide training to
appropriate personnel on these policies and procedures and will review and revise such poliCies
and procedures, as necessary, on an annual basis.
